<html>
<title> - THE TRANSITION TO A CIVILIAN-LED U.S. PRESENCE IN IRAQ: ISSUES AND CHALLENGES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
  THE TRANSITION TO A CIVILIAN-LED U.S. PRESENCE IN IRAQ: ISSUES AND 
                               CHALLENGES 

=======================================================================


                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 18, 2010

                               __________

                           Serial No. 111-135

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

62-399 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
















                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
THEODORE E. DEUTCH, Florida          CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director












                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Jeffrey D. Feltman, Assistant Secretary, Bureau of 
  Near Eastern Affairs, U.S. Department of State (Former United 
  States Ambassador to Lebanon)..................................     8
Colin Kahl, Ph.D., Deputy Assistant Secretary of Defense for the 
  Middle East, U.S. Department of Defense........................    19

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California, and Chairman, Committee on Foreign 
  Affairs: Prepared statement....................................     4
The Honorable Jeffrey D. Feltman: Prepared statement.............    11
Colin Kahl, Ph.D.: Prepared statement............................    23

                                APPENDIX

Hearing notice...................................................    44
Hearing minutes..................................................    45
The Honorable Dan Burton, a Representative in Congress from the 
  State of Indiana: Prepared statement...........................    46
The Honorable Gary L. Ackerman, a Representative in Congress from 
  the State of New York: Prepared statement......................    48
The Honorable Joe Wilson, a Representative in Congress from the 
  State of South Carolina: Prepared statement....................    50
The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri: Prepared statement......................    51
Responses from the Honorable Jeffrey D. Feltman to questions 
  submitted for the record by the Honorable Russ Carnahan........    53
Questions for the record submitted by the Honorable Russ Carnahan 
  to Colin Kahl, Ph.D. (responses not received prior to printing)    64
Questions for the record submitted by the Honorable Barbara Lee, 
  a Representative in Congress from the State of California, to 
  the Honorable Jeffrey D. Feltman and Colin Kahl, Ph.D. 
  (responses not received prior to printing).....................    65


  THE TRANSITION TO A CIVILIAN-LED U.S. PRESENCE IN IRAQ: ISSUES AND 
                               CHALLENGES

                              ----------                              


                      THURSDAY, NOVEMBER 18, 2010

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1:24 p.m. in room 
2172, Rayburn House Office Building, Hon. Howard L. Berman 
(chairman of the committee) presiding.
    Chairman Berman. The committee will come to order. Of 
course, for the third day our Caucus is meeting, although I 
think it is about to end. So I hope we will be joined by some 
other members of the Caucus soon, although we are fortunate to 
have Mr. Klein.
    In a moment I will recognize myself and the ranking member 
for up to 7 minutes for purposes of making an opening 
statement. I will recognize the chairman and ranking member of 
the Middle East and South Asia Subcommittee for 3 minutes for 
opening remarks, and then all other members will have an 
opportunity to make 1-minute opening statements, if they wish 
to do so. Members may also place written statements in the 
record.
    Before I begin the opening statement, I would just like to 
say a few words relevant to the committee. We are coming to the 
end of this Congress. I hope, I expect, I intend for there to 
be one other hearing during this session, hopefully the first 
week of December, a hearing on the implementation of Iran 
sanctions. It is our intention to have such a hearing. That 
legislation is one of the things I think we can rightfully be 
proud of accomplishing in this past Congress. There are other 
issues as well, but I am not going to belabor all of that at 
this particular moment.
    I do want to say to my ranking member that I do think we 
have accomplished a number of things together, and while we 
haven't agreed on absolutely every single issue, you have been 
a very good partner, a spirited partner. I don't want to be 
presumptuous, because I know these decisions haven't been made, 
but, were such a decision to be made, I would look forward to 
working with you for 2 years in your new capacity and my new 
capacity, if I can afford to be presumptuous about my own 
situation.
    So we have a number of colleagues on the committee who will 
not be here again because we have a Caucus, and who will not be 
here in the next Congress. I would like to mention them, but 
since they are not here I am just going to mention one of my 
dear friends and, I think, a great member of the committee who 
will not be with us in the next Congress, Congressman Klein, 
who made a tremendous contribution to the product of this 
committee and to the Congress.
    I think all of us, and I know this is true of the ranking 
member from our earlier conversations over the years, shares 
the feeling. We will miss having you here very much, 
Congressman Klein.
    [Applause.]
    Chairman Berman. I will now begin the opening statement. 
This hearing will delve into a subject, and I apologize to the 
witnesses for the delay, a subject that, not too long ago, was 
at the very top of our foreign policy agenda: Iraq and the U.S. 
role there.
    U.S. military forces currently face a December 31, 2011, 
deadline for a complete withdrawal, in accordance with the 2008 
agreement with the Iraqis. As a result, the primarily Defense 
Department-led military campaign is being transformed into a 
diplomacy, assistance, and advisory effort led by the State 
Department and USAID. This transition is unprecedented in terms 
of its sheer complexity, the resources required to do it right, 
and the likely consequences of failure.
    As part of this transition, the State Department will be 
expected to manage a number of specialized security-related 
tasks--often with the use of contractors--that in the past were 
handled exclusively by U.S. military forces. These include 
operating early-warning radar systems that alert our personnel 
to incoming rocket fire, handling unexploded munitions that 
land inside of U.S. compounds, running unmanned aerial 
surveillance; and recovering downed vehicles.
    The State Department's largest program in Iraq is now--and 
will continue to be--police training, but the challenges facing 
the department in this area will become even greater with the 
launch of a new advanced police training and reform program and 
with the handoff of some training responsibilities from DoD.
    In order to monitor political, economic, and security 
developments in Iraq; identify potential threats to U.S. 
interests before they emerge; and effectively engage with key 
political players, the State Department also plans a 
significant expansion of the U.S. diplomatic presence in Iraq. 
In addition to our Embassy in Baghdad--which is already by far 
the largest staff of any U.S. Embassy in the world--State is 
planning to open four other diplomatic posts: Consulates-
general in Basra and Erbil and temporary posts, called 
``embassy branch offices'' in Mosul and Kirkuk.
    The U.S. transition is proceeding in a difficult and 
dangerous setting. Iraq's failure to form a workable governing 
coalition promptly after the elections has complicated, and, at 
times, worsened the security environment in which State is 
assuming the responsibilities once held by Defense.
    Our diplomats and development professionals in Iraq 
continue to face significant perils, with insurgent rocket fire 
sometimes targeting the Embassy compound. Movements of U.S. 
officials outside their facilities often require security 
details of up to 20 or 25 people. And with the host country 
currently unable to provide the security and services routinely 
offered in most nations, the security environment may become 
even more treacherous after the withdrawal of U.S. forces.
    The transition from Defense to State in Iraq is a massive 
undertaking, and it won't come cheap. But by any calculation, 
the costs associated with an increased State Department 
presence pale in comparison to the resources we have expended 
in Iraq through so many years of war and terrorism. If funding 
this transition will help preserve the hard-won progress in 
Iraq and provide a solid foundation from which the United 
States can support Iraq's internal stability and foster a 
peaceful Iraqi role in a strategically critical region, then it 
is likely to be worth paying the price--even in these difficult 
economic times.
    I have a number of questions about the transition. How have 
Iraqi political problems been affecting transition plans and 
the security situation of our personnel on the ground? How 
often and under what circumstances will our diplomats be able 
to move around the country? What do they expect to accomplish 
after the U.S. military departs Iraq?
    How will our diplomats, civilian professionals, 
contractors, and facilities be protected if U.S. troops are not 
at hand? What can we expect from the Government of Iraq in 
terms of protection of our diplomatic establishments? How is 
State responding to concerns over shortcomings in past 
management and oversight of its programs in Iraq--as raised, 
for example, by the Special Inspector-General for Iraq 
Reconstruction--particularly as State plans to ramp up use of 
private contractors to provide both security and life-support 
services?
    And finally, the big question that I hope our witnesses 
from State and Defense will address head on: What are the 
consequences for U.S. national security if we shortchange the 
transition effort? In a world where Congress is going to have 
to make very, very difficult budgetary choices, why should 
funding the transition be a high priority? How will a robust 
civilian presence in Iraq after 2011 serve the larger national 
interest? What is the administration's long-term vision for 
U.S.-Iraq relations?
    Regardless of how one feels about the origins of the Iraq 
war and U.S. policy in the last decade, these complicated 
issues challenge all of us to look ahead, in a bipartisan, 
manner at the kind of strengthened U.S. civilian presence in 
Iraq that can advance our interests and enable us to stand with 
the Iraqis who are fighting extremism and trying to develop 
their country.
    In a moment I will introduce our witnesses, but first to 
the ranking member and presumptive chair of the next Congress, 
Ileana Ros-Lehtinen, for any opening remarks that she might 
have.
    [The prepared statement of Mr. Berman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, and I 
also would like to begin my statement by thanking three 
departing members from our side from our committee, Senator 
elect Boozman of Arkansas and two gentlemen from South 
Carolina, Mr. Barrett and Mr. Inglis. We will miss them, and we 
thank them for the great service to our committee.
    And thank you, Mr. Chairman, for holding this timely 
hearing today. The U.S. mission in Iraq is in a time of 
transition. Embassy leadership has rotated twice since the 
committee last received testimony from both the Department of 
State and the Department of Defense. A more fundamental 
transition is now underway as the U.S. combat mission in Iraq 
ended in August 2010 and the U.S. role shifts further.
    As a result, while I respect and admire and thank our 
witnesses for their record of service to our nation, it is 
difficult to understand, Mr. Chairman, why the administration 
declined to send higher ranking officials from the State 
Department and the Defense Department to a full committee 
hearing on a matter as important as Iraq and future U.S. 
policy.
    I am concerned that such a decision reflects a broader 
strategic ambivalence in the policy and our approach to Iraq. 
We owe it to our troops who have sacrificed so much in the 
course of their mission in Iraq to ensure that a strategic 
defeat does not spring from their hard-fought, tactical 
victory.
    Unfortunately, for most of the last 2 years much of the 
focus has been on dealing with short-term considerations such 
as drawing down troop levels quickly without sufficient focus 
on the emergence of Iran as the key power broker in the country 
or the long-term security applications and situations or the 
nature and the extent of the future U.S.-Iraqi relationship.
    We do have a strategic framework agreement with Iraq, but 
what is the administration's strategy for moving this effort 
forward? We must be both proactive and prospective. Iraq can 
play a critical role in limiting the Iranian influence, which, 
as all of us know, has been destabilizing in the region, and 
Iran's ability to threaten and intimidate its Gulf neighbors is 
well documented.
    So a stable, secure and friendly Iraq can help separate 
Iran and Syria, can provide Turkey with a key alternative to 
economic involvement with Iran, can demonstrate to the Gulf 
states that Iran cannot dominate the northern Gulf, nor can it 
expand to the south, and, finally, a friendly Iraq can help our 
key allies in the region.
    I would ask that our witnesses address this question: If 
they agree that greater U.S. leverage in Iraq can play a 
critical role in limiting Iran's influence and Iran's ability 
to threaten and intimidate its neighbors, and what specifically 
is the United States' near and also far reaching and long-term 
strategy for addressing the Iranian threat in Iraq? Would you 
agree that a stable, sovereign and secure Iraq will show that 
Sunni and Shiite Muslims can cooperate and can diffuse the 
threat of Sunni extremism, as well as the kind of Shiite 
extremism backed by Iran?
    And going one step further, we have to recognize that 
Iran's activities in both Iraq and Afghanistan are components 
of a broader threat that it poses to U.S. interests and allies 
in the Middle East and beyond. The need for a sound, 
comprehensive strategy has never been more vital as we 
transition our presence to an overwhelmingly diplomatic one and 
as Iran seeks to exploit that transition period to draw the 
recently formed Iraqi Government under its thumb. We may still 
be able to achieve a lasting, grand strategic victory, but not 
if we treat Iraq as if they were some sort of end state rather 
than the need for a continuing strategic focus.
    And finally, Mr. Chairman, given the need for full 
oversight of our Iraq policy, I am concerned about news that 
the State Department has failed to comply with repeated 
requests by the Special Inspector General for Iraq 
Reconstruction for contract data on the Iraqi police training 
program. Given the troubled history of our police training 
efforts there, the need for oversight of this program is 
particularly important so that we do not repeat past mistakes.
    I share the concerns that were raised by Senators Grassley 
and Coburn in their October 6 letter to the Secretary of State 
about the continued failure of the Bureau to take immediate 
steps to address the lack of cooperation with the Special 
Inspector General for Iraq Reconstruction.
    What guidance has been given employees of the Department of 
State in regards to responding to requests made by SIGIR to 
ensure that the unanswered request for information does not 
continue? What has been done by both State and DoD to implement 
the recommendations set forth by SIGIR?
    And finally, Mr. Chairman, I would like to express concern 
regarding the plight of the residents of Camp Ashraf. Mr. 
Chairman, last year you and I issued a joint statement urging 
the Iraqi Government to live up to its commitment to ensure the 
continued well-being of all who live in Camp Ashraf. However, 
reports indicate that denied medical care, including vital 
treatment for cancer patients, are still being denied to the 
residents of Ashraf.
    Secretary Feltman, I would urge the Department of State to 
please intervene more proactively to ensure that the 
humanitarian protections to which Ashraf residents are entitled 
and were promised are going to be upheld.
    Mr. Chairman, I thank the witnesses for their time and look 
forward to hearing from them about the administration's plans 
going forward. Thank you, Mr. Chairman, for the time.
    Chairman Berman. Well, thank you very much, Ms. Ros-
Lehtinen.
    We are now--I hate to tell you--going to have a series of 
five votes. As soon as the fifth vote is cast I will come back 
here. Talk among yourselves or whatever.
    I just have one thing, though, since the ranking member 
raised it. I want to reaffirm the notion that the commitments 
on Camp Ashraf that were made by the Iraqi Government and all 
that, I share the concern that those are kept and that we not 
forget about that issue.
    With that, the committee will recess until we have finished 
the votes on the House Floor. Thank you.
    [Recess.]
    Chairman Berman. I see neither the chair nor the ranking 
member of the Middle East and South Asia Subcommittee and so 
does any member wish to--the gentleman from California, Mr. 
Rohrabacher, is recognized for 1 minute.
    Mr. Rohrabacher. Thank you very much. I won't be able to 
attend the whole hearing because of a speech on the Floor of 
the House that I am working on about 1 hour from now, but, Mr. 
Chairman, I just would like to note that as we go into this 
phase where American troops are withdrawing we cannot throw 
those people who are our friends, throw them out as if they 
meant nothing to us.
    Those people who are currently allied with us in the war 
against radical Islam, especially the mullah regime in Iran, 
should not be taken for granted and should not be put in a very 
dangerous situation. I talk specifically about Camp Ashraf. 
These are protected persons by our own definition. We should 
not try to placate or let the Iraqis build some sort of cordial 
relationship with the mullah dictatorship in Iran by the 
sacrifice of these freedom loving people.
    Second of all, I would hope that the people in Iraq 
understand that we see it when churches are bombed. We feel it 
badly when, yes, Muslims are killing Muslims, but when Muslims 
there in Iraq start killing Christians it raises even greater 
alarm here in the United States. Just last week, 50 Christians 
were killed in a Syrian church as it was bombed by radical 
Muslims.
    We have got to make sure that the Government of Iraq knows 
that is unacceptable, all of the factions in Iraq know that is 
unacceptable. We need to have a consulate in Erbil to give the 
Kurds a little bit of protection so they will know that they 
aren't going to be so victimized, and perhaps the Christians, 
the Syrian Christians, need a province of their own in Iraq 
that will give them some sort of safety in that type of 
environment.
    Those are issues that I think need to be put in the record, 
Mr. Chairman, at the beginning of this hearing. Thank you very 
much for giving me the opportunity to register those areas of 
concern.
    Chairman Berman. The time of the gentleman has expired. And 
now I think we should hear the testimony of our witnesses.
    Ambassador Jeffrey Feltman serves as the Assistant 
Secretary of State for Near Eastern Affairs. Previously he 
served as a U.S. Ambassador to Lebanon. He was also head of the 
Coalition Provisional Authority's (CPA) Office in the Erbil 
Province of Iraq and simultaneously served as Deputy Regional 
Coordinator for the CPA's Northern Area. Ambassador Feltman has 
been a career member of the Foreign Service since 1986, and I 
think he is uniquely and specially qualified to testify on this 
subject.
    Dr. Colin Kahl is the Deputy Assistant Secretary of Defense 
for the Middle East. Prior to joining the department he was a 
Council on Foreign Relations Fellow, working at the department 
on counterinsurgency, counterterrorism, and stability 
operations. Dr. Kahl has also served as coordinator for the 
Obama campaign's Iraq--Obama campaign? Was it the Obama 
campaign? The Obama campaign's Iraq Policy Expert Group. Oh, I 
get it. Okay. It was. Well, it is good they have an expert 
group. And was a Senior Fellow at the Center for a New American 
Security, a Washington-based think tank.
    Gentlemen, we are very pleased you could be with us, and we 
look forward to your testimony. Your entire statements will be 
included in the record. If you choose to summarize, that will 
be good. Assistant Secretary Feltman?

   STATEMENT OF THE HONORABLE JEFFREY D. FELTMAN, ASSISTANT 
 SECRETARY, BUREAU OF NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF 
       STATE (FORMER UNITED STATES AMBASSADOR TO LEBANON)

    Ambassador Feltman. Chairman Berman, Ranking Member Ros-
Lehtinen, honorable members of the committee, thank you for 
holding this hearing and for inviting Dr. Kahl and me to appear 
before you today. Thank you for agreeing to enter my entire 
statement into the record.
    The next few years will be critical for our relationship 
with Iraq, for Iraq's relationship with its neighbors and for 
the relationship between the people of Iraq and their own 
government. In each of these relationships, the United States 
has a tremendous amount at stake. With Iraq situated 
strategically in the Middle East, it is profoundly in our 
national interest that Iraq emerge as a strategic partner to 
the United States, a sovereign, stable, self-reliant nation and 
a positive force for moderation and stability in the region.
    For most of the past 40 years, Iraq has played a negative, 
a destabilizing role in the region, often allied with our 
adversaries and posing a threat to U.S. interests and those of 
our friends and allies. In the year ahead, as the military 
continues its drawdown in accordance with our security 
agreement with Iraq, our mission is clear. We must secure the 
gains our nation and our military have made at great cost and 
great sacrifice, and we must help Iraqis move forward in a 
long-term partnership with us.
    Even a few years ago, we might not have been able to 
anticipate having the strategic opportunity that we have today. 
My written statement describes a number of the challenges 
Iraqis are facing, including the need to establish and rebuild 
functioning social, economic and governing institutions.
    Iraqis have made significant strides, particularly in the 
security area. Iraq has substantial natural resources, a rich 
cultural history and resilient, diverse population, but Iraq is 
not yet in a position to resolve its challenges and make 
strategic progress on its own without continued assistance from 
us. Left unresolved, the problems Iraq faces have the potential 
to seriously affect our country's national security as a weak 
and an unstable Iraq could provide sanctuary for international 
terrorists, become a tool of Iraq's aggressive neighbors and 
destabilize the Gulf.
    Last week's agreement on the framework to form an inclusive 
representative government was a real milestone, but none of us 
should be under the illusion that success is a foregone 
conclusion or that there won't be significant challenges ahead. 
It is in our interest that we remain engaged and be a leading 
partner of Iraq through this transition and beyond.
    As you know and as my colleague here can further 
illuminate, the United States is drawing down its military 
presence in Iraq. That presence has already been reduced to 
below 50,000 troops and is slated to draw all the way down by 
the end of 2011. But we need a long-term and sustainable 
partnership with Iraq, and Iraq's leaders have made it clear 
that they want a close, an enduring and a civilian-led 
partnership with the United States.
    The State Department, working intensively with our 
colleagues in the Defense Department, the White House and 
agencies all across the government, is determined to secure 
that long-term partnership and to get this transition right. I 
would like to thank Dr. Kahl and his colleagues at the 
Department of Defense in particular for their close 
coordination with us at State on this effort.
    What we have done is identify the areas where Iraq most 
needs our continued assistance over the next 3-5 years in order 
to become more stable and self-reliant. We have identified the 
programs that will have the biggest impact and the most 
critical areas, and we are implementing those programs with our 
Iraqi partners, building off the progress they and our Embassy 
and military colleagues have made over the last few years.
    One of the most important examples of work the State 
Department will be assuming is the police development program. 
Over the past 7 years, the United States has helped Iraq's 
Ministry of Interior to expand its security forces up to 
approximately 600,000 people and train them in counterterrorism 
and basic police skills.
    But now we must ensure that these forces also have the 
management, leadership and technical tools and capabilities to 
provide for internal security, protect Iraq's vulnerable 
minorities that we have heard already talked about and uphold 
the rule of law. This is a basic element of civil society, of 
more reliant economic growth and of respect for human rights.
    Likewise, as our military presence continues to draw down, 
we will continue robust security cooperation with Iraq through 
an Office of Security Cooperation. We are also implementing 
assistance programs aimed at ensuring that Iraq's economy will 
be able to stand on its own feet and be truly self-reliant. 
Iraq isn't there yet. Despite having vast oil wealth in the 
ground, Iraq lacks more basic infrastructure and will not be 
able to fully benefit from these resources for at least 5 more 
years.
    Our programs help Iraq to establish banking and regulatory 
frameworks and put in place policies for economic growth and 
diversification which will also help secure the investments of 
U.S. companies in Iraq.
    Outside of Baghdad, as you mentioned, Mr. Chairman, we plan 
to open two consulates general in Basra and Erbil and two 
temporary embassy branch offices in Kirkuk and Mosul. Our 
officers there in these offices will engage directly with 
Iraqis at the regional and local levels, helping to diffuse 
tensions and build institution and other capacities. Tensions 
between Iraq's communities are still significant, and we have 
an important role to play in helping Iraq's leaders resolve 
these sources of friction.
    Turning to how we are transitioning from a military to 
civilian lead, let me say first that we have, as you all know, 
the finest military in the world, and they have done heroic 
work in Iraq. The State Department will now assume some of 
these roles and activities previously carried out by the 
military; some of these the State Department has never done 
before. Dr. Kahl may talk more about the excellent support that 
DoD is providing to us as we move forward.
    Within the State Department there are seven operational 
areas we focus on when we talk about transition: Property, 
facilities, security, life support, medical, aviation and 
contractor oversight. In each of these cases, we are engaged in 
very robust planning and pursuing our interests in partnership 
with the Iraqis.
    In summation, securing Iraq's future as a sovereign, 
stable, self-reliant nation, a positive force in the region and 
a strategic partner to the United States is a massive 
undertaking. I see the transition from a military-led presence 
in Iraq to a civilian-led presence to be a defining test of the 
Foreign Service and of the nation's diplomatic corps that I am 
proud to serve in.
    Our civilian effort in Iraq is a prime example of Secretary 
Clinton's strong desire to create a more expeditionary 
workforce that can rise to meet the challenges of the twenty-
first century. It is imperative that we succeed and that we are 
able to seize the opportunity and make good on the enormous 
investments and sacrifices made by Americans and Iraqis over 
the last 7 years.
    I look forward to answering any questions the committee may 
have, and I look forward to working with this committee on 
achieving these goals.
    [The prepared statement of Ambassador Feltman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Berman. Thank you very much, Assistant Secretary 
Feltman.
    And now Secretary Kahl?

 STATEMENT OF COLIN KAHL, PH.D., DEPUTY ASSISTANT SECRETARY OF 
    DEFENSE FOR THE MIDDLE EAST, U.S. DEPARTMENT OF DEFENSE

    Mr. Kahl. Chairman Berman, Representative Ros-Lehtinen and 
distinguished committee members, I appreciate the opportunity 
to appear before you today alongside my colleague and friend, 
Assistant Secretary Jeff Feltman, to discuss the issues and 
challenges associated with the United States' transition from a 
predominantly military to a civilian-led presence in Iraq.
    This transition includes four key components. The first is 
ensuring that the Iraqi Security Forces reach what we are DoD 
call minimum essential capabilities or MEC. The second is 
developing a State-led police development program. Third is 
expanding the diplomatic presence, and fourth is establishing 
an Office of Security Cooperation in Iraq or what we call OSC-
I.
    These programs, implemented under the Strategic Framework 
Agreement, are the foundation for building our continued 
strategic partnership with the government and people of Iraq. 
This is a partnership that includes robust diplomatic, 
political, economic and security cooperation.
    Assistant Secretary Feltman has discussed the overall U.S. 
policy and the specific programs for our post 2011 presence, so 
I want to focus my remarks on the security situation in Iraq, 
which is enabling our responsible drawdown to continue as the 
Iraqis step forward and assume primary responsibility, as well 
as the support the Department of Defense is providing to the 
State Department to help the transition process that Assistant 
Secretary Feltman alluded to.
    The first thing I want to talk about is the security 
environment. I know members have concerns about the readiness 
of the Iraqi Government to provide security in Iraq as U.S. 
forces draw down between now and December of next year, 
particularly as extremist groups, such as al-Qaeda in Iraq, 
continue to wage high profile attacks against innocent Iraqi 
civilians.
    Indeed, we continue to see evidence that extremist groups 
are capable of horrific attacks. Recent examples include the 
October 31 attack on Christian church members, the bombings in 
Shia neighborhoods of Baghdad, followed by attacks on pilgrims 
in Karbala and Najaf in the first week of November, attacks on 
Christians in Baghdad on November 9 and 10 and recent 
coordinated attacks on Iraqi Security Forces in Diyala and 
Kirkuk.
    Nevertheless, it is crucial to keep in mind that these 
attacks have repeatedly failed to accomplish al-Qaeda in Iraq's 
number one strategic objective, and that is to spark a return 
to widespread insurgency and communal civil war. Moreover, 
despite the often exaggerated media narrative that depicts an 
Iraq that is teetering on the brink of failure or just on the 
verge of unraveling, the underlying security situation as 
assessed by our commanders on the ground remains strong.
    Overall levels of attacks and Iraqi civilian casualties 
have remained relatively constant at their lowest levels of the 
post 2003 period for more than 2 years. This consistently low 
level of violence is even more remarkable considering that it 
has been maintained as the Iraqi Security Forces have assumed 
primary responsibility for security throughout the country and 
as our force levels have declined from roughly 144,000 troops 
on the ground when we took office in January 2009 to roughly 
50,000 today, while those troops have simultaneously shifted 
their mission from helping to lead combat counterinsurgency 
operations to a predominantly supporting, advise and assist 
role.
    Since January 1, 2009, the Iraqi Security Forces have been 
in the lead on security operations, a role that they have more 
capably embraced with each passing month. On September 1 of 
this year, we made the official transition to Operation New 
Dawn and drew down to below 50,000 U.S. troops, fulfilling the 
President's commitment made at Camp Lejeune in February 2009 
and further cementing the Iraqis' status as in the lead in the 
security role.
    While the United States continues to provide vital support 
to the Iraq Security Forces, including training, equipping, 
mentoring, advising and providing certain critical technical 
enablers, the Iraqis are very much in charge, and they simply 
no longer need such large numbers of U.S. forces to keep the 
violence in check. The ISF have also remained professional and 
independent of political pressure, despite the prolonged period 
of uncertainty associated with Iraq's Government formation 
period.
    Beyond the increased capability of the ISF, the primary 
factor underlying the improved security situation is a viable 
political process that now exists as the enduring framework in 
which key disputes and questions related to the distribution of 
power and resources can be resolved.
    The vast majority of Iraq's major parties, factions and 
communal groups, including many former militants, are now 
heavily invested in the political system. In the 6 months it 
took to form a government in Iraq in 2006 following the 
December 2005 elections, extremists exploited a security vacuum 
to plunge Iraq into civil war.
    In 2010, no such vacuum emerged, despite 8 months of 
sometimes raucous government formation negotiations, largely 
due to the activities of the ISF and a functioning caretaker 
government. That is progress. Last week, after months of heated 
negotiations, Iraqi leaders took a major step forward with the 
formation of a government coalition, including all the major 
Iraqi political blocs, as well as agreement on a set of 
political reforms addressing a series of divisive issues.
    As Vice President Joe Biden often remarks, ``politics has 
broken out'' in Iraq. As we all know, it is often messy, as it 
is even in the most developed democracies, but the Iraqi 
commitment to the political process is real. As we have 
witnessed in recent weeks, violence will continue to challenge 
this process, but as long as the Iraqis stay committed to 
resolving their differences through the force of words rather 
than the force of arms, we believe Iraq is unlikely to sink 
back into widespread violence.
    Iraq will continue to suffer terrorist attacks, both over 
the next year and after U.S. forces complete their drawdown, 
but the level of U.S. support required to assist the Iraq 
Security Forces in keeping violence at low levels and below a 
threshold that we judge would threaten the viability of the 
Iraqi state is a small fraction of previous years. Moreover, it 
is our judgment that the current military footprint on the 
ground is currently so modest compared to what it used to be in 
the past that the remaining drawdown over the next year is 
unlikely to trigger a dramatic surge in violence.
    I want to say a few words about what DoD is doing to help 
the State Department in the transition that is ongoing. As 
Assistant Secretary Feltman stated, the Department of State, 
the Department of Defense and other agencies and offices have 
undertaken unprecedented levels of coordination and planning 
for the transition in Iraq. DoD has an excellent working 
relationship with the State Department, and we are working 
together at all levels to achieve a successful transition.
    As one would expect with a transition of this scope and 
complexity, challenges exist. DoD is doing everything it can to 
help set up the State Department for success during this 
process. After a comprehensive review process, USF-I, that is 
U.S. Forces in Iraq, identified 1,127 essential activities that 
DoD performs in Iraq. The tasks were binned into 24 different 
categories, examples of which include intelligence, 
telecommunications and reconciliation efforts.
    In close coordination with Embassy Baghdad, USF-I completed 
the process of canvassing, categorizing and defining handover 
plans for these activities and functions, determining what 
would be turned over to the Iraqis, what would be turned over 
to U.S. civilian agencies or multilateral or private 
institutions or terminated altogether.
    The Embassy has already taken the lead on 150 of these 
tasks and will assume control of another 310 as USF-I complete 
its drawdown over the next year. Eighty-two will be transferred 
to U.S. Central Command and 36 to the Iraqi Government. Five 
hundred and thirty have been completed, and 22 were identified 
as nonessential and therefore will be phased out.
    In addition, we are leaning forward to provide the State 
Department with excess equipment and other forms of support. 
Recently, for example, the Army has identified 60 excess MRAPS 
and nine fuel trucks for transfer to the State Department for 
use beyond 2011. An OSD and Joint Staff team is also working 
with State to plan for the receipt and maintenance of this 
equipment. We are working with the State Department to help 
them define other requirements for additional equipment and 
support. We have established a State-DoD Senior Ad Hoc Working 
Group that meets on a weekly basis to work through State's 
requests, as well as other emerging requirements.
    On September 27, the Deputy Secretary of Defense approved 
providing life support after 2011 to the State Department on a 
reimbursable basis, so-called LOGCAP support. Embassy Baghdad 
is receiving substantial technical support from USF-I, the Army 
Materiel Command and OSD staff. This is a good start, but in 
the coming year DoD will likely have to do even more to assist 
the State Department to ensure a successful transition, and we 
will.
    In conclusion, our continued engagement in Iraq remains 
vital. We are now at the point where the strategic dividends of 
our enormous sacrifice are within reach, as long we take the 
proper steps to consolidate our hard-fought gains. Building a 
long-term strategic partnership with Iraq, based on mutual 
interests and mutual respect, presents many advantages for the 
United States.
    Continued U.S. support for the Iraqi Security Forces, 
including joint training exercises and military exchanges, will 
also help to ensure steady improvements in Iraqi capabilities 
even beyond 2011 and over time improved interoperability that 
will facilitate Iraq's long-term cooperation with the United 
States and other regional states to address common challenges.
    Continued security assistance and cooperation through the 
Office of Security Cooperation in Iraq that we are in the 
process of standing up will assist in addressing concerns we 
share with Iraq, such as counterterrorism, 
counterproliferation, maritime security and air defense.
    In this context, however, reduced funding is a challenge 
for the transition. Security costs are high, and planners must 
base costs on the conditions today, not on best case 
assumptions of what they may be in 2012. As the U.S. draws down 
its military presence, the Iraqi Government must feel that it 
has the foundational capabilities to defend against external 
threats both objectively and subjectively.
    Our country has sacrificed a great deal in Iraq, and fully 
resourcing the mission to its completion is vital to ensuring 
that this enormous national investment produces enduring 
results. We are 10 yards from the goal line and need one final 
push.
    With that I look forward to your questions. Thank you very 
much.
    [The prepared statement of Mr. Kahl follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Chairman Berman. Well, thank both of you very much, and I 
will now yield myself 5 minutes to begin the questioning.
    Secretary Kahl, in the forthcoming Brookings study on Iraq 
that is about to be released, the authors say the U.S.' top 
priority in Iraq should be to prevent the outbreak of another 
civil war. This is a quote from the draft:

        ``By far, the most important U.S. military mission now 
        is to support Iraq's internal stability by continuing 
        to perform peace keeping functions, especially, but not 
        exclusively, in Kirkuk and other territories disputed 
        by Arabs and Kurds in northern Iraq.''

    The authors say that the U.S. troops can be a crucial 
substitute until trust is reestablished between contending 
Iraqi groups. Do you agree with that view? Do you foresee U.S. 
troops playing that role on an ongoing basis? What will the 
consequences be if they don't?
    Mr. Kahl. Well, I have not read the draft Brookings report, 
although I am familiar with the arguments made by many of its 
authors and its general conclusions.
    I think the judgment of the Department of Defense, as well 
as other agencies and departments, to include the State 
Department, is that a return to the dark days of 2006 and 2007 
where there was an all-out communal civil war is unlikely under 
most foreseeable circumstances, and I think it is our general 
assessment that the drawdown is completely compatible with 
consolidating the security gains that we have seen over the 
last 2 years.
    I think it is worth noting that we have pulled out almost 
100,000 forces since January 2009, and yet those security 
trends have stayed relatively positive. That included us 
leaving the cities in June 2009, handing over formal security 
responsibility to the Iraqis for the first time and then of 
course drawing down and changing our mission this past 
September.
    So I think we have actually seen some evidence for the fact 
that the Iraqi Security Forces, which now number more than 
660,000, are capable of beating back the extremists and 
preventing the kind of back sliding that that report mentions.
    I will say, though, that in the next year and beyond we 
will continue to work with the Iraqi Security Forces to 
professionalize them, modernize them, and the State Department 
will be actively engaged precisely on some of those Arab-Kurd 
fault line areas that were mentioned in the report.
    I would defer to Assistant Secretary Feltman, but keep in 
mind that two of the embassy branch offices are in Kirkuk and 
Mosul for precisely the kind of conflict resolution and 
engagement efforts that will continue to be important in the 
coming years.
    Chairman Berman. Just to add that while there are a number 
of things for the State Department that are new in terms of 
security operations, they are still not going to be involved in 
peacekeeping operations in those areas.
    Secretary Feltman, real quickly. Sadr. He seems to have 
been a critical part of Maliki's ability to apparently become 
the next prime minister or continue in that job. He started out 
after the election vigorously opposed to Maliki. What do you 
think convinced Sadr to throw his support to Maliki? To what 
extent will the Sadrists exert influence in the government that 
is being formed, and to what extent is the Sadrist faction a 
threat to U.S. interests in Iraq? A minute and 25 seconds.
    Ambassador Feltman. Mr. Chairman, I think the question is 
even related to what you asked my colleague and friend, Colin, 
just a second ago because I think what the Iraqis have done is 
they have built an inclusive government. The Iraqis themselves 
have said they want everybody inside because they want the 
differences among them to be fought out on political grounds, 
through political means, through the constitutional organs, not 
on the street.
    And so, yes, the Sadrists are part of this equation, but 
the Sadrists are only one part of the equation. Everybody is 
inside. I think the little theatrics, the melodrama we saw in 
the Parliament on November 11, showed, as Vice President Biden 
said and as Colin quoted, ``Politics has broken out in Iraq.''
    And so I think it is actually positive that everybody is 
inside. It may not be the most efficient way to do things, 
but----
    Chairman Berman. Let me just interject only because of the 
time. Taking your line, is Alawi, as a key part of the 
government, part of that sort of getting everybody inside and 
in the political process?
    Ambassador Feltman. Alawi himself played a critical role in 
bringing all of Iraqiya in. Alawi right now seems to be in a 
little bit of a huff off in London, but all of his Sunni 
leaders that are part of Iraqiya that are so important to 
Iraq's stability, to the regional integration, have agreed that 
they are part of the government.
    Chairman Berman. My time has expired. I recognize the 
gentlelady, the ranking member, for 5 minutes and ask 
Ambassador Watson if she would just take the chair for a moment 
while I have a quick meeting. I will be back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. 
Secretary Feltman, Chairman Berman and I had asked about or had 
related to you our concerns about Camp Ashraf residents, their 
humanitarian problems, lack of protection. If you could 
elaborate on that? That is number one.
    Number two, I wanted to ask you about the reports that we 
have been hearing about hundreds of former Sunni sectarian 
fighters who had joined the Awakening or the Sons of Iraq, 
reconciled with the government, many of whom have gained 
extensive knowledge about the U.S. military, and they appear to 
have rejoined al-Qaeda.
    Reports indicate that many of these Awakening fighters are 
still on the Iraqi Government's payroll and are covertly aiding 
the insurgency. If you could verify that and what vetting 
mechanisms we have in place to prevent covert assistance to the 
insurgency by Awakening fighters?
    And then lastly, sirs, what is the administration's 
strategy to address concerns surrounding the development fund 
for Iraq and the outstanding United Nations Security Council 
resolution that Iraq is still technically subjected to? Do you 
believe that we can utilize this leverage with the Iraqi 
Government as a means to hedge against the growing Iranian 
influence in the government?
    So if I could ask you, any of you, those three questions? 
Thank you.
    Ambassador Feltman. Thank you, Congresswoman Ros-Lehtinen. 
First of all, I think I speak for all of us that are working on 
this Iraq file. We agree with you and the chairman 100 percent 
that the Iraqi Government needs to live up to its commitments 
to protect the human rights of the residents of Camp Ashraf. We 
agree 100 percent.
    It is something that we are watching and monitoring 
extremely closely. It is not only us, there is international 
effort as well. The U.N. and others are also involved in 
encouraging the Iraqi Government to live up to its commitments. 
Basic food, basic medical supplies and basic fuel are getting 
in to the residents of Camp Ashraf.
    There are a lot of mutual provocations between the Iraqis 
and the residents that aren't particularly helpful. We have 
told everyone to lower the rhetoric because this could quickly 
lead to a miscalculation and get out of control. When there 
have been incidents reported to us, we have engaged with the 
committee of the Iraqi Government that is in charge of this 
portfolio.
    I think that our engagement has had some success and 
reminded the Iraqis of their obligations under international 
humanitarian law to provide for the human rights of the 
residents of Camp Ashraf. So we agree with you and we need to 
keep watching this. We are glad that we have international 
partners that are involved.
    In terms of the Sons of Iraq, in general I would say that 
this has been a success story. By the time of the Iraqi 
elections in March, about 43 percent of the roughly 95,000 
people who are part of the Sons of Iraq had been incorporated 
into security, or for the most part civilian positions inside 
the government. This was all put on hold during the elections 
and government formation, but the Iraqis have formed a Sons of 
Iraq Coordination Center in the Ministry of Defense to continue 
the programs. They are continuing the payments.
    In terms of allegations of individual members I will ask 
Dr. Kahl if he can comment, but in general this has been a 
success story. I think that the overall numbers tell us this. 
If you look at 2007, there were about 3,800 violent incidents a 
month in Iraq. Thirty-eight hundred. And now today there are 
some horrible incidents happening, but it is roughly 250 to 300 
a month. A big difference from 3,800 a couple of years ago.
    On DFI, Iraq, as you know, was subject to a number of 
Chapter 7 obligations under the Security Council, mostly 
stemming from the 1990 invasion of Kuwait. Iraq has made some 
progress in moving to get out from under these Chapter 7 
obligations. We want to see Iraq get out from under these 
Chapter 7 obligations as they meet the benchmarks that are 
there. They have met the requirements, for example, to get out 
from under the WMD-related Chapter 7 obligations and they are 
working to complete the Oil for Food.
    But some of these are actually things I think that even the 
Iraqis would agree are helpful. Resolution 1483 had a Chapter 7 
obligation on all of us to return----
    Ms. Ros-Lehtinen. Thank you. Thank you. I am sorry. My time 
is up.
    Ambassador Feltman. Oh, I am sorry.
    Ms. Ros-Lehtinen. But thank you. Good answers. Thank you, 
Madam Ambassador.
    I would ask Mr. Fortenberry to take over for me. I have a 
few more appointments.
    Ms. Watson [presiding]. Yes. I was just going to go to Mr. 
Fortenberry for questions. In the meantime, I will recognize 
myself for the next 5 minutes while he is taking the ranking 
member's place.
    I address this to both of you. The Commission on Wartime 
Contracting in Iraq and Afghanistan has been expressing concern 
that the transition has, at least in the past, proceeded too 
slowly and suffered from inadequate coordination between the 
State and DoD.
    What are some of the specific steps both Departments have 
been taking to improve the collaboration and clarify what needs 
to be done as military forces leave and the State inherits some 
of their responsibilities, along with what is being done in 
your various Departments to make certain that transition 
decisions can be made quickly and at high levels in order to 
avoid a bureaucratic backlog that may halt a successful 
transition?
    I will start with you, Mr. Feltman, or Mr. Kahl?
    Ambassador Feltman. Thank you. There are a number of 
reports that we have that help us, to guide us, that show us 
some of the challenges of working in these environments so I am 
glad you brought this up. We certainly have a lot of lessons 
learned.
    I think the coordination right now, echoing what Dr. Kahl 
said earlier, is excellent. I will use one example, what we 
call LOGCAP. LOGCAP is Logistics Civil Augmentation Program, it 
means life support. It is the DoD contracting mechanism that 
provides the life support for people working in Iraq. We in the 
State Department have never had anything quite this complicated 
to deal with, and DoD has generously said that they will 
continue the LOGCAP contracting for us on a reimbursable basis.
    It is the type of example of coordination that we are doing 
now where DoD knows how to do this life supporting contracting, 
they know how to monitor it; they know how to make sure that 
there is proper oversight built in. They know all it takes, we 
are learning. So they have agreed to renew the LOGCAP on a 
reimbursable basis to make sure we get it right. That is one 
example.
    Police training is another one, a very key one. We will 
have our police training program in place by July 1 next year, 
but not actually taking responsibility for the program until 
October 1 next year.
    Ms. Watson. Let me just ask. Is your police training 
separate from the training of their forces to be able to defend 
their own country? Is it a separate type of training?
    Ambassador Feltman. It is a separate type of training, but 
we have built in a 3-month overlap so that the transition is 
smooth.
    What DoD has done is they have done force generation, built 
up the Iraqi forces, built up the Iraqi security services. 
There were 58,000 police in 2003, there are now over 600,000 
people that work in the security field. That is force 
generation. There has been focus on basic training and 
counterterrorism operations.
    What the State Department will do is move to everything you 
need for a criminal justice and security system to work. You 
want honest cops on the----
    Ms. Watson. Yes. Do they have courts? Do they have people--
--
    Ambassador Feltman. Yes. Our program will be integrated 
into a criminal justice program that includes Department of 
Justice, Department of Homeland Security, all----
    Ms. Watson. That is us. Do they have theirs up and running?
    Ambassador Feltman. Theirs are there, but there is a lot of 
work that needs to be done to have an integrated system of 
policemen on the streets, pretrial detention, court systems for 
criminal cases and then rehabilitation and jail sentence 
afterwards.
    So we are doing a whole government approach that goes from 
the honest cop on the street to the fair judge in the 
courtroom.
    Ms. Watson. You know, what is really frustrating me, and I 
asked this way, way back when the word came to our committee. 
It looks like we are in nation building, and it looks like we 
are going to have a long-term commitment if we still have 
establishment of a judiciary to do.
    You know, every time there is development of a new program 
in the process it is costing us a lot. Can we see an end in 
sight in terms of the judiciary? I mean, we are building a 
nation, and we are paying the cost of it. What confounds me is 
why is it taking the Iraqis so long to see their own people 
trained to fight crime and then to protect their own borders? 
What is wrong?
    Ambassador Feltman. I am sorry. I left out a key difference 
between the DoD force generation security program and what we 
are doing now. We are working much more on train the trainers 
so that they themselves are doing the work.
    Ms. Watson. That is what I wanted to hear. Train the 
trainers so we can get our people out of there in a reasonable 
amount of time.
    Ambassador Feltman. Yes, we are talking about a 
transitional program and not doing things that the Iraqis 
themselves need to be responsible for. We are talking about how 
to unleash the Iraqi capacity so they can do it themselves.
    Ms. Watson. Absolutely. We have been there what, 8 years 
now?
    Ambassador Feltman. Yes, about 7, 8 years.
    Ms. Watson. Yes. Slow learners I guess. You know, what did 
they do before? Did they depend on Saddam Hussein? Yes, sir? 
Mr. Kahl?
    Mr. Kahl. I would just say one of the challenges of course 
is it has been a little bit like building an airplane in 
flight.
    We have been generating a lot of these institutions, 
helping them build back institutions that were flattened or 
that were left to degrade under Saddam Hussein's dictatorship 
and then 20 years of war and sanctions and other things, as 
well as obviously the strife that inflicted the country in the 
aftermath of the 2003 invasion. So we are building institutions 
in an incredibly challenging environment.
    There are institutions for the rule of law. They continue 
to be a work in progress, but in fact one of the things, I 
think one just anecdote, one of the things that actually 
catalyzed the government formation coalition that we saw over 
the last couple weeks was a ruling by the Iraqi Constitutional 
Court that time was up and that the Iraqis had to go on with 
forming their government.
    The fact that the court made that ruling and that the Iraqi 
politicians complied I think is evidence of an evolving rule of 
law.
    Ms. Watson. Yes. My time is up now, but I will just say 
this last thing before I go to Mr. Fortenberry.
    I see a long-term commitment. I mean, we have had this 
conversation in this committee a couple of years ago. It is 
still going on. I am wondering. It appears to me that they 
would like us to leave their country, and maybe we ought to 
compromise and leave sooner. If we have been training the 
trainers in the last few years, they are slow learners if they 
don't have it now.
    And with that I will go on to Congressman Fortenberry.
    Mr. Fortenberry. Thank you, Madam Ambassador. Gentlemen, I 
appreciate your willingness to come out today. I believe 
primarily my discussion will be with you, Mr. Secretary 
Feltman. A pleasure to see you again.
    As you know, I am from Nebraska. Now, when you think about 
Nebraska, you might think of corn, cattle, football, something 
like that, but it is also home to a diverse set of communities 
that are a diversity of communities of refugees, many of whom 
are Iraqis who have sought asylum and a peaceful environment 
out on the prairie.
    I want to also commend your deputy, Mr. Corbin, for coming 
out to Nebraska. We actually had a very productive town hall 
meeting, as I have shared privately with you before, with the 
Iraqi community and learned that there is a good continuity 
there, even in Nebraska, among people who perhaps in their 
former homeland didn't necessarily have the type of interaction 
that you would expect in America, so that was a pleasant 
surprise.
    With that said, I think the extent to which we can judge 
our efforts in Iraq as a success is also dependent upon a very 
important question. To the degree that we have to help protect 
ethnic and religious minorities and help them fully integrate 
into the economic and political life of the emerging new 
country, there is a quiet diaspora going on in Iraq, and that 
has become heightened of late with the bombing of the Catholic 
church. Many people perhaps don't realize that Iraq had as many 
as 2 million Christians at one time. The number may now be as 
low as 400,000.
    This problem that is going on not only in Iraq, but in 
other places in the Middle East, robs people of their ancient 
homeland. It is a grave injustice. It is becoming incumbent 
upon countries such as the United States to help absorb 
populations who have a right to remain in peace and security 
and again their ancient homeland.
    So again, the bombing of the church several weeks ago 
highlights the vulnerability here of that particular religious 
minority, but there are others. In my town of Lincoln we have a 
fairly well established Yezidi community as well, another 
ancient religion who has traditionally enjoyed some degree of 
insulation within the borders of Iraq. So it is my 
understanding that the Prime Minister visited the church that 
was bombed. I think that was an important signal. It is my 
understanding that they have committed to rebuild the church 
with Iraq's funds.
    What else can we do to work in tandem particularly with the 
international community, as well as strengthen the political 
culture, to demand, to cajole, to admonish that the religious 
minority populations are an essential part of Iraqi's important 
cultural history in the Middle East and provide a leavening 
presence in that country? Their loss would be devastating I 
think to the future of their country.
    Ambassador Feltman. Congressman, thank you. We share your 
horror over the church bombings and other attacks that these 
vulnerable minorities have suffered. It is atrocious, 
reprehensible.
    I would say that we in the government spend more time 
thinking and talking about the Iraqi minorities than we do the 
larger groups in Iraq, and that is because they are more 
vulnerable. They deserve to have more attention, more thought 
put toward how we might be of assistance.
    As you know from the anecdote that you described, our 
minorities coordinator, Michael Corbin, is doing a really good 
job of reaching out to the minority communities in the United 
States to hear from them, to get an idea from them of what 
their people back home most need, where we might most be of 
service.
    After that church bombing it was not only that the Prime 
Minister visited the church and vowed to use government funds 
to rebuild it--and we will hold him to that, by the way--you 
had condemnation from across the spectrum, including the Grand 
Ayatollah Sistani from Najah. I think all of the Iraqis were--
--
    Mr. Fortenberry. Does this shock the sensibilities of all 
of Iraq?
    Ambassador Feltman. Yes. Words like shock were used in 
these condemnations, and I think they were sincere.
    Now, in terms of what is the United States doing, first of 
all, whenever there is an attack like this our forces, our 
military people, go to the Iraqis and say hey, how can we help? 
How can we follow up? How can we help you get to the bottom of 
this? We are not in the cities anymore, but we can help provide 
background. Our political leaders from Washington, as well as 
Ambassador Jeffrey, go to the political leadership and make 
similar pleas.
    When we designed our strategy for Iraq for the transition 
period ahead, we picked out those places for embassy branch 
offices partially because of the minorities being there, so 
that we would be able to engage with the minorities on the 
ground, the Christian communities in Ninawa Province, continue 
the assistance programs that we are providing that have both 
short-term emergency humanitarian aspects and long-term job 
creation aspects.
    We need to work in partnership with the Iraqis to have a 
viable future for these communities in Iraq. We agree. The fact 
that there is now an inclusive government coming together that 
is proud to represent all of Iraq's groups, I think we have a 
good partner for this.
    Mr. Fortenberry. Thank you, Mr. Secretary.
    Ms. Watson. I would like now to call on Mr. Costa from 
California for questions.
    Mr. Costa. Thank you very much, Madam Chairperson. 
Secretary Kahl, you talked about the drawdown dates. What do 
you believe the military's presence in Iraq will look like 5 
years from now?
    Mr. Kahl. Congressman, that is a good question. We have an 
agreement with the Iraqis. It was negotiated by the Bush 
administration in November 2008. At the time it was referred to 
as the Status of Forces Agreement.
    Mr. Costa. Right.
    Mr. Kahl. We call it the Security Agreement. It calls for 
remaining forces to be out of Iraq by 2011. The President has 
been clear that we are going to comply with the terms of the 
Security Agreement.
    We will have a robust Office of Security Cooperation that 
lingers beyond that, which falls under the Chief of Mission 
authority. That will be----
    Mr. Costa. But at the end of the day, it really is going to 
depend upon the Iraqis' ability to stand on their own and what 
presence they want us to play?
    Mr. Kahl. Well, it is not completely condition dependent 
because we have an agreement. So the only conditions in which--
--
    Mr. Costa. I am talking beyond the agreement.
    Mr. Kahl. I understand, sir. It would require the Iraqis to 
request----
    Mr. Costa. Right.
    Mr. Kahl [continuing]. An additional stay and for us to----
    Mr. Costa. Agree to it.
    Mr. Kahl [continuing]. Agree to that.
    Mr. Costa. Yes. In terms of the transition between you and 
the State Department, I think there is concern--there always 
has been--in terms of American personnel, Embassy people, 
USAID, to ensure security is there in the outlying provinces.
    Do you feel confident that that is going to be able to 
protect those American men and women and others who are 
assisting in getting the government's feet and its economy back 
on track?
    Mr. Kahl. I feel confident that the State Department is 
planning against the security conditions as they are now, and 
since we expect the security conditions to continue to improve 
I think that the State Department will be well positioned 
beyond 2011 to continue to operate and contribute to Iraq's 
progress beyond that point.
    If circumstances were to deteriorate substantially then we 
would have to re-evaluate, but we don't anticipate that 
circumstances are going to deteriorate substantially.
    Mr. Costa. Secretary Feltman, I am concerned about the 
overall ability of this government to try to institute these 
institutions of democracy and what still seems to me in that 
part of the world to be a situation in which corruption, if not 
a way of life, is endemic.
    I told that to Prime Minister Maliki when I first met him 4 
years ago, and I am not so sure how much progress we have made 
there. Could you give us an assessment, notwithstanding the 
institutions' performances so far, as to that level of 
corruption?
    Ambassador Feltman. Congressman Costa, corruption is a 
problem. You put your finger on it when you talked to Prime 
Minister Maliki. It is one of the many problems that Iraq has 
to deal with, but it is a significant one.
    There is an Iraqi Commission that has been established and 
we are supporting it; they have had some successes. In 2009, 
they prosecuted and convicted the Deputy Minister of 
Transportation. They have prosecuted collaborators of the 
Minister of Trade and these people are in prison. So there has 
been some success.
    We also have rule of law advisors who are working in the 
provinces with provincial leaders against this. We are 
supporting OIGs in various ministries, but it needs to be more 
institutionalized. This is a real challenge.
    We ourselves have a coordinator against anticorruption 
measures in the Embassy, so we have a part of the Embassy that 
is working full-time on the very issue you have recognized 
because the Iraqi people have to see that the government is 
accountable. Accountability is part of having a responsible 
democratic government.
    Mr. Costa. And how would you grade the ability of the 
government this far to demonstrate some level of credibility 
that it is just not a way of life as I described it to the 
Prime Minister and that they are making changes, that there is 
some people that are viewed or believed to be on the up and up?
    Ambassador Feltman. A couple thing. Maybe even partially in 
response to your meeting, Prime Minister Maliki did announce, 
and with our support, an anticorruption campaign that he 
himself has put his name and office behind so that there was a 
high level push. Again, we are supporting this in terms of 
institution and financing as well to give it some heft.
    These prosecutions that took place were high profile 
prosecutions so people can see that there is stuff taking 
place. A lot more needs to be done.
    Mr. Costa. Yes, obviously. I want to switch tracks quickly 
before my time runs out.
    On my last visit there we went out to Anbar Province and we 
started doing some exchanges. Not only do they have a 
tremendous amount of oil resources, but it used to be the bread 
basket of the Middle East. There is tremendous agricultural 
opportunities with the Tigris and Euphrates.
    What efforts have taken place to get the agricultural 
economy going again? We have done some exchanges with some of 
our universities, with Fresno State in California and Anbar 
University. Is there more of that going on?
    Ambassador Feltman. Well, a couple things. USDA in June 
took out a delegation with representatives from 17 U.S. 
agribusiness firms to try to find partnerships and 
opportunities with Iraqis. They met with over 200 Iraqi 
agribusiness representatives. So we are trying to promote some 
U.S. business exchanges in line with what you are doing on the 
academic side.
    Also, AID is stepping up work in the agricultural sector, 
because it is not only that that used to be a bread basket, it 
is a real potential for employment generation. Iraq needs jobs 
that are in the non oil sector, and this is a real potential.
    Mr. Costa. Thank you.
    Ms. Watson. Thank you. I now yield 5 minutes to the 
gentleman from Texas, Mr. Poe.
    Mr. Poe. Thank you, Madam Chairman. Thank you both for 
being here.
    I want to zero in on first Camp Ashraf and the situation as 
it is today and what is taking place there. I personally am 
concerned about the residents of Camp Ashraf, the 4,000 people 
that are in there. I have received information from the 
residents about several things that are taking place. Here are 
some photographs taken by residents of Camp Ashraf, and I will 
have to let these get closer to you all.
    Their concern is about the 112 loudspeakers that are posted 
around the entire camp that are blaring in to Camp Ashraf at 
all times of the day and night apparently comments such as we 
are going to set Ashraf on fire; Ahmadinejad is a great 
President, all of you should follow him; you will soon see how 
the Iraqis are going to attack and destroy this camp; and we 
will hang every one of you.
    It seems to me to be some type of psychological torture, 
torment, whatever you want to call it, to the residents of Camp 
Ashraf. First of all, I am not sure who is doing this. Is it 
Iranians with the permission of the Iraqis? Is it Iraqis? Is it 
both? Do either one of you know about this? Secretary Feltman?
    Ambassador Feltman. The residents of Camp Ashraf and their 
family and family members here have certainly told us about 
this. We are aware of this, yes.
    Mr. Poe. And what is your opinion of it? Do you think that 
is the way we ought to be treating folks in Camp Ashraf?
    Ambassador Feltman. Congressman, Camp Ashraf is under Iraqi 
sovereignty. That is just a fact. We have to accept the fact 
that it is under Iraqi sovereignty.
    Mr. Poe. I understand that, but do you think these are 
Iranians or Iraqis that are blaring these loud speakers?
    Ambassador Feltman. I don't know who is blaring it in, but 
the commitment that we have from the Iraqis that they must live 
up to, that we will be working to make sure they live up to, is 
that they do not deport them to a country where they could be 
tortured for their political beliefs, where they could be 
arrested and detained for their political beliefs.
    That is a commitment that the Iraqis have given us. It is 
part of an international understanding that is with the Iraqis 
now.
    Mr. Poe. Excuse me. I am just limited on time. Do you think 
that that is a commitment that they are going to live up to or 
we just hope they are going to live up to?
    Ambassador Feltman. We are watching this all the time. The 
Camp Ashraf residents are not popular in Iraq. They were part 
of the whole----
    Mr. Poe. I know where they came from. I know they are 
Iranians.
    Ambassador Feltman. So this is a political issue in Iraq, 
and both sides around that camp in our view have engaged in 
needless and dangerous provocations basically.
    Mr. Poe. Well, do you think that setting up 112 
loudspeakers that are going off all day and night saying all 
kinds of propaganda things against the Camp Ashraf residents is 
something that should be a concern to the United States, or we 
should just forget this because now it is not our problem?
    Ambassador Feltman. No. I think all of these basically 
dangerous versions of name calling, provocations, et cetera, 
should all be stopped because you don't know when things are 
going to get out of control. You don't know when someone is 
going to cross a line that leads to violence.
    Mr. Poe. I agree.
    Ambassador Feltman. It has happened before.
    Mr. Poe. So what are we doing about this, these 
loudspeakers?
    Ambassador Feltman. We are in constant touch with the 
Iraqis on this. The U.N. is in constant touch with the Iraqis 
on this. There have been some incidents that have taken place 
lately that we have played a facilitating role in calming 
things down.
    Mr. Poe. Are we trying to get these loudspeakers down, or 
are we just talking about it?
    Ambassador Feltman. We are telling people you need to lower 
the temperature on both sides.
    Mr. Poe. So if they don't, what do we do? I am just 
concerned about when we are finally gone what happens to these 
residents in Camp Ashraf?
    Ambassador Feltman. We support an international solution 
for this whole problem. We need to have an international 
resolution for the whole problem of the residents of Camp 
Ashraf. You can't predict when there might be one of these 
provocations that crosses the line and leads to violence.
    Mr. Poe. Exactly. Are you concerned as a representative of 
the United States about the Iranian influence in not only Camp 
Ashraf, but Iraq as well?
    Ambassador Feltman. Yes, of course. We are concerned about 
Iranian influence across the region. I am the Assistant 
Secretary for NEA. We see Iran's bad behavior in a lot of 
different places, but what we see happening----
    Mr. Poe. Has it stabilized? Is it getting worse? Is it 
about the same? Is it getting better? I mean, kind of give me a 
thermometer of what your opinion is of the Iranian influence in 
Iraq.
    Ambassador Feltman. It is there, but I think that the 
Iraqis have shown time and time again that they are making 
decisions based on Iraqi considerations.
    You know, whether that is talking about government 
formation, how to conduct elections, how to do their alliances, 
whether to go against the Iranian backed Shia militias, time 
and time again the Iraqis have acted like Iraqis.
    Mr. Poe. One more question if I may. The Christians that 
have been murdered in Iraq. Our position as a nation. Who is 
responsible for that? Al-Qaeda claims responsibility. Do you 
agree that al-Qaeda is responsible for that or somebody else?
    Ambassador Feltman. Yes, and specifically a group called 
the Islamic State of Iraq, which is an al-Qaeda affiliate, has 
taken credit. We think it is credible.
    I think it shows how awful these people are that they are 
doing this sort of thing, but it also shows their desperation, 
that they are having to go after these vulnerable minorities 
because they have failed to reignite the Sunni-Shia clashes 
that I think they had hoped to ignite.
    Mr. Poe. Thank you, Madam Chairman.
    Ms. Watson. I now yield 5 minutes to the gentlewoman from 
Texas, Sheila Jackson Lee.
    Ms. Jackson Lee. Madam Chair, it is a pleasure to have the 
opportunity to be yielded by such a distinguished diplomat as 
yourself. Let me thank Congresswoman Watson for her own service 
in the cause of diplomacy and peace and human rights. I thank 
Chairman Berman for yielding the chair to the congresswoman and 
thank the chairman for this hearing.
    If I have had a moment of pleasure on this committee, it is 
because of the very fine staff and diplomats of the United 
States Department of State, so I want to take this opportunity 
to personally thank you and the Secretary of State and the 
numbers of individuals that I have engaged with in a number of 
opportunities to represent the United States in faraway places.
    We, I believe, have the moral compass of right. This is not 
a hearing about Haiti, but am I outraged about the failing 
government in Haiti, the suffering people with cholera? I am. 
Am I concerned about the Sudanese and the elections coming up? 
I am. And the hot spot that Pakistan has become, Burma and 
others? Yes, I am.
    And I raise those particular countries because at one point 
or another we have stuck our nose in there, rightly so. I hope 
we will be sticking our nose back in Haiti because I believe 
that we are in a complete collapse there, but this is not a 
hearing on Haiti.
    But we have taken up the cause of human rights, and I want 
Mr. Feltman and your esteemed colleague here to comment on Iraq 
from this perspective. Let me give my bias. We went into Iraq 
looking for weapons of mass destruction, and all we did is 
destroy and make worse to a certain extent. I am not a fan of 
the present government. I am not a fan of Maliki, a Shiite, and 
al-Alawi, who is a Sunni, whose name I may not have pronounced 
correctly, but I know him when I see him.
    It is a constant, continuous contact sport of who can have 
the upper hand, who can fill their pockets even more. So we 
have less troops there, but I don't think the United States can 
abandon its responsibility concerning human rights.
    So let me pointedly ask a question about the people in Camp 
Ashraf. Not only do they have loud noises and torture and 
afraid for their life and the people in this country, Iranian-
Americans whose families were left behind or whose families 
went to be able to save the lives of other family members 
living in utter fear.
    Can you tell me what humanitarian act is it to let sick and 
dying people die because they have no access to medical care? 
Elham, Mehdi, both suffering massively from cancer, being 
denied the opportunity, one with thyroid cancer, one with acute 
kidney cancer in a critical state, already lost one of their 
kidneys, and they need to undergo an operation and they can't 
seem to get into a hospital.
    Where is our stance on human rights? We are continuing to 
plow investment into Iraq. Let me be very clear. I hope we have 
a pathway of economic opportunity. I hope there is a pathway 
for businesses in the United States. After all, look at the 
enormous measure of blood that we shed in that place. And what 
do we have to show for it?
    I believe if we do not leave behind a civilized society 
that in their own way--they don't have to follow the American 
way. They don't have to have the Harris County Public Health 
System. But in their own way cannot treat people in a 
humanitarian way. If they cannot form a government in less than 
100 years, which it appears to be, that still is not stable and 
still we have not agreed to then we have failed.
    If we keep continuing to say they are a sovereign nation, 
sovereign about what? They are not a sovereign nation. They are 
a collapsed government. There is nothing positive going on 
there other than the massive new embassy that we have and the 
hard working State Department employees that ground out their 
lives there every single day. Thank them for their service.
    Mr. Feltman, I can't let you leave this room without 
telling me what are you going to do in our State Department 
about the conditions in Camp Ashraf? I come here every time 
there is a hearing and say the same thing. What we understand 
is the Iraqi soldiers are the ones that are intimidating these 
people. Now, if you can prove that they are spies then it is 
something else.
    May I yield 1 additional minute? Let me yield for him to 
answer the question, Mr. Chairman.
    Chairman Berman [presiding]. Yes. Unanimous consent to 1 
additional minute to answer.
    Ms. Jackson Lee. Thank you. If they are spies, Mr. Feltman, 
let us know that because that is a sovereign issue, but I want 
the State Department to act. Thank you.
    Ambassador Feltman. We will have to look into the 
individual cases you raise. I as Jeff Feltman am not familiar 
with the individual cases you raise. I will tell you that every 
time I have gone to Iraq, and I was going to Iraq on a fairly 
regular basis--a week a month--for a long time I go to see the 
Minister of Human Rights. I go to see the Minister of Human 
Rights because I care about the same values that you have 
described and because it is part of our policy to be promoting 
universal standards and adherence to human rights, and so it is 
an important part of our dialogue to keep in touch with the 
Minister of Human Rights.
    Yes, we talk about Camp Ashraf with the Minister of Human 
Rights. We talk about the prisons. Iraq has a long way to go.
    Ms. Jackson Lee. What are we going to do? We need to go to 
Camp Ashraf. We can't listen to the human rights director. He 
is not telling the truth. What can we do, the U.S.?
    Ambassador Feltman. I think that she, the Human Rights 
Minister, who is a woman, has actually been very effective in 
working with us on some of the issues dealing with Camp Ashraf, 
and I think she has also been a very good advocate for the very 
values that you are describing. She is working in extremely 
difficult circumstances.
    Ms. Jackson Lee. Okay. I need a report in writing because 
my time is up. A report in writing not on these cases, but the 
conditions in Camp Ashraf and what the United States and she, 
the director, the Secretary of Human Rights, is actually doing 
regarding the ceasing of torture of these people in Camp 
Ashraf. She is doing nothing.
    And I yield back. Thank you.
    Chairman Berman. The time of the gentlelady has expired.
    I thank both of you. I apologize for the delayed start, the 
45 minute intermission. I appreciate very much your being here, 
and with that this committee hearing is adjourned. Thank you.
    Ambassador Feltman. Thank you.
    [Whereupon, at 3:35 p.m., the committee was adjourned.]
                                     

                                     












                            A P P E N D I X

                              ----------                              


        Material Submitted for the Hearing Record Notice 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               Minutes                                

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               
                               Burton statement
                               __________

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                              
                              Ackerman statement
                               __________

               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               

                               Wilson statement
                               __________

               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               
                               Carnahan statement 
                               __________

                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               
                               Carnahan QFRs & responses 
                               __________

                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               
                               Carnahan QFRs 

                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               
                               Lee QFRs 

                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                                              
                                 <all>

</pre></body></html>
